GUERRIERI, BARTOS

& ROMA, P. C.

1900 M STREET, N.W.
SUITE 700
WASHINGTON, D.C. 20036-3518

JOSEPH GUERRIERI, JR.
JEFFREY A. BARTOS
ELIZABETH A. ROMA
JOHN J. GRUNERT
ANTONIA BIRD

(202) 624-7400
(202) 624-7420

FACSJMILE:

WWW.GECLAW.COM

April 6, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Linda Rizzo-Rupon, et al., Petitioners v. International Association of
Machinists and Aerospace Workers, AFL-CIO, IAM District Lodge 141,
and IAM Local Lodge 914, Respondents, No. 20· 1378

Dear Mr. Harris:
I represent Respondents International Association of Machinists & Aerospace
Workers ("IAM"), IAM District Lodge 141, and IAM Local Lodge 914, in the above·
named matter. The Petition for Certiorari in this matter was docketed on April 1,
2021, and Respondent's Brief in Opposition is currently due Monday, May 3, 2021.
Pursuant to Supreme Court Rule 30.4, I am writing to request a 30-day
extension of time, until Wednesday, June 2, 2021, to file a Brief in Opposition. The
extension is requested because we are a small law firm and I require additional time
to prepare and file a response which fully address the issues raised by Petitioners,
while also handling other preexisting professional obligations.
Thank you for your attention to this matter.
Respectfully,

�ft__
Elizabeth A. Roma
cc: Patrick J. Wright, Counsel for Petitioners
Danny Bickell, Deputy Clerk

